Attachment A

USCA11 Case: 19-13391

Date Filed: 06/02/2020

Page: 1 of 4

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-13391
Non-Argument Calendar
________________________
D.C. Docket No. 1:08-cr-00212-MLB-1

UNITED STATES OF AMERICA,
Plaintiff–Appellee,
versus
DONTAYOUS TONARD CAMERON,
Defendant–Appellant.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
(June 2, 2020)

Before MARTIN, ROSENBAUM and BLACK, Circuit Judges.
PER CURIAM:

USCA11 Case: 19-13391

Date Filed: 06/02/2020

Page: 2 of 4

Dontayous Cameron appeals the 24-month sentence he received pursuant to
18 U.S.C § 3583(e)(3) following the revocation of his term of supervised release.
He argues for the first time on appeal that his sentence is unconstitutional under
United States v. Haymond, 139 S. Ct. 2369 (2019), because it exceeded the
statutory-maximum sentence for the underlying offenses when combined with his
initial sentence, and it was predicated on facts found by the district court only by a
preponderance of the evidence.
A district court may revoke a defendant’s supervised release and impose a
period of incarceration if it finds by a preponderance of the evidence the defendant
violated the terms of his supervised release. 18 U.S.C. § 3583(e)(3). The
maximum imprisonment sentence that may be imposed upon revocation is
determined by the felony class of the underlying offense that resulted in the
supervised release term. Id.
It is a cardinal rule of appellate review that a party may not challenge an
alleged error when that party invited the district court to make that error. United
States v. Carpenter, 803 F.3d 1224, 1236 (11th Cir. 2015). Thus, the party who
invited or induced the error may not invoke the plain-error rule to reverse the
district court’s judgment. Id.
Cameron is precluded under the invited-error doctrine from challenging his
post-revocation sentence because he requested the district court impose an 182

USCA11 Case: 19-13391

Date Filed: 06/02/2020

Page: 3 of 4

month post-revocation sentence, which would have resulted in the same issue of
which he now complains—exceeding the statutory-maximum sentence for the
underlying offenses when combined with his initial sentence. The statutorymaximum sentence for each of Cameron’s § 922(g) convictions was 120 months’
imprisonment, and he was sentenced to concurrent terms of 108 months’
imprisonment. At his revocation hearing, Cameron, represented by the same
attorney as he is now represented by on appeal, argued that a sentence of 18
months’ imprisonment upon revocation was reasonable. When added together,
Cameron’s requested sentence of 18 months’ imprisonment and initial sentence of
108 months’ imprisonment would have yielded a total sentence of 126 months’
imprisonment, exceeding the 120-month statutory-maximum sentence for the
underlying convictions. Thus, Cameron is precluded from now arguing on appeal
that his 24-month post-revocation sentence is unconstitutional because it exceeded
the statutory-maximum sentence for the underlying offenses when combined with
his initial sentence, as he expressly invited the court to impose such a sentence at
his revocation hearing. See Carpenter, 803 F.3d at 1236.
And even if he weren’t, he could not prevail on his claim. We have held that
18 U.S.C. § 3583(e), the statute under which Cameron was sentenced on
revocation of his supervised release, is constitutional. See United States v.
Cunningham, 607 F.3d 1264, 1265 (11th Cir. 2010). We are bound by that
3

USCA11 Case: 19-13391

Date Filed: 06/02/2020

Page: 4 of 4

precedent unless and until it is overruled or abrogated by the Supreme Court or by
this Court sitting en banc. United States v. Archer, 531 F.3d 1347, 1352 (11th Cir.
2008).
United States v. Haymond, 139 S. Ct. 2369 (2019), on which Cameron relies
for his claim, did not abrogate our precedent. Rather, in Haymond, the Supreme
Court invalidated only § 3583(k). See Haymond, 139 S. Ct. at 2384-85 (Gorsuch,
J.); 139 S. Ct. at 2386 (Breyer, J.); see also United States v. Doka, 955 F.3d 290,
292 (2d Cir. 2000) (“Haymond did not undermine, let alone overrule, our precedent
on the validity of § 3583(e).”). Therefore, even had Cameron not invited error, we
would have remained bound by our precedent to reject his claim.
AFFIRMED.

4

